                                                   NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

11   Case Number: A02090043                                                     11        Page 1of 1


                 In October 2002, a complainant1 alleged a PI2 had copied some text from a
     ,           published paper3 into a proposal submitted to NSF.4 Our review showed the PI
                 copied several sentences5 from the paper into her proposal without properly quoting
                 or citing the text.

                 We wrote to the PI requesting clarification. The PI apologized for her sloppiness
                 and explained how she was rushed in the preparation of this proposal. She noted
                 she cited the paper in her proposal. She pointed out the copied text did not
                 influence her proposed hypothesis or methods and the ideas in the copied text were
                 not presented as her own, but rather a s a summary of other's research. The PI also
                 noted her relative inexperience in preparing proposals for NSF.

                 A reviewer, who noted the proposal appeared prepared far too quickly, a s it was rife
                 with errors, gives the PI'S explanation some credibility. NSF's database confirms
                 the PI has not submitted many proposals to NSF. Because the amount of the copied
                 text is small, the text is clearly summarizing others' results, and the inexperience of
         ,       the PI, we concluded the best resolution of this matter w,as to have the PI correct
                 the record. She has, and this case is closed




                     1 (footnote redacted).
                     2 (footnote redacted).
                     3 (footnote redacted).
                     4 (footnote redacted).
                     5 (footnote redacted).



                                  Investigator       Attorney             Supervisor              A1GI

             Sign / date
